<html>
<title> - S. 3172, THE RESTORE OUR PARKS ACT</title>
<body><pre>[Senate Hearing 115-521]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-521
 
                   S. 3172, THE RESTORE OUR PARKS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                             NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3172

                       THE RESTORE OUR PARKS ACT

                               __________

                             JULY 11, 2018

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       Printed for the use of the
               Committee on Energy and Natural Resources         
           
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 30-981               WASHINGTON : 2020         
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        ANGUS S. KING, JR.
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          MAZIE K. HIRONO
ROB PORTMAN                          TAMMY DUCKWORTH

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Michelle Lane, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1
King, Jr., Hon. Angus S., Subcommittee Ranking Member and a U.S. 
  Senator from Maine.............................................     4
Portman, Hon. Rob, a U.S. Senator from Ohio......................     5
Gardner, Hon. Cory, a U.S. Senator from Colorado.................     7
Alexander, Hon. Lamar, a U.S. Senator from Tennessee.............    10
Hirono, Hon. Mazie K., a U.S. Senator from Hawaii................    11

                               WITNESSES

Warner, Hon. Mark, a U.S. Senator from Virginia..................    12
McDowall, Lena, Deputy Director, Management and Administration, 
  National Park Service, U.S. Department of the Interior.........    13
Argust, Marcia, Director, Restore America's Parks, The Pew 
  Charitable Trusts..............................................    17
Brengel, Kristen, Vice-President for Government Affairs, National 
  Parks Conservation Association.................................    26
Fretwell, Holly, Outreach Director and Research Fellow, Property 
  and Environment Research Center (PERC).........................    33

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Agenda and Witness List..........................................     3
Alexander, Hon. Lamar:
    Opening Statement............................................    10
Argust, Marcia:
    Opening Statement............................................    17
    Written Testimony............................................    19
    Responses to Questions for the Record........................    62
Backcountry Hunters & Anglers:
    Letter for the Record........................................    73
Brengel, Kristen:
    Opening Statement............................................    26
    Written Testimony............................................    28
    Responses to Questions for the Record........................    63
Daines, Hon. Steve:
    Opening Statement............................................     1
Fretwell, Holly:
    Opening Statement............................................    33
    Written Testimony............................................    35
    Responses to Questions for the Record........................    64
Friends of Acadia:
    Letter for the Record........................................    75
Gardner, Hon. Cory:
    Opening Statement............................................     7
    Written Statement............................................     8
Hirono, Hon. Mazie K.:
    Opening Statement............................................    11
King, Jr., Hon. Angus S.:
    Opening Statement............................................     4
McDowall, Lena:
    Opening Statement............................................    13
    Written Testimony............................................    15
    Responses to Questions for the Record........................    58
National Association of Counties:
    Letter for the Record........................................    78
National Parks Second Century Action Coalition:
    Letter for the Record........................................    79
National Trust for Historic Preservation:
    Letter for the Record........................................    81
National Wildlife Federation:
    Letter for the Record........................................    84
Outdoor Recreation Roundtable:
    Letter for the Record........................................    86
Portman, Hon. Rob:
    Opening Statement............................................     5
S. 3172, the Restore Our Parks Act...............................    66
Theodore Roosevelt Conservation Partnership:
    Statement for the Record.....................................    88
Warner, Hon. Mark:
    Opening Statement............................................    12
(The) Wilderness Society:
    Letter for the Record........................................    91


                   S. 3172, THE RESTORE OUR PARKS ACT

                              ----------                              


                        WEDNESDAY, JULY 11, 2018

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:00 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Steve Daines, 
presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. We will come to order.
    Today we will discuss Senate bill 3172, the Restore Our 
Parks Act, which was introduced by Senators Portman, Warner, 
Alexander and King on June 28th. We have also had additional 
members join Senate bill 3172 as co-sponsors including myself, 
as well as Senators Collins, Manchin, Capito, Blunt, Heinrich, 
Tillis and Gardner. This truly is a great start, and I am 
hoping that Senate bill 3172 garners the support of many more 
of my colleagues in the coming weeks.
    This legislation addresses a topic that is very near and 
dear to my heart, the topic of the deferred maintenance backlog 
in our national parks. Having literally grown up in the shadows 
of Yellowstone National Park, I see firsthand the economic 
benefits and the outdoor heritage that relays to our state. 
However, in order to continue growing those benefits, we must 
ensure the needs of our parks are adequately addressed.
    As many of my colleagues have heard, time and time again, 
the National Park Service currently estimates the deferred 
maintenance backlog at approximately $11.6 billion. This amount 
is split roughly 50 percent between transportation and non-
transportation related assets.
    Outstanding critical deferred maintenance needs for our 
parks include everything from historic buildings, employee 
housing and visitor centers, as well as sewer systems, trails 
and paved roads. Only the Department of Defense, which I would 
note has a substantially larger budget and workforce, has more 
assets to maintain than the National Park Service.
    In fact, in my home State of Montana, our current backlog 
is about $217.5 million with the largest portion, $153.8 
million, at Glacier National Park. The projects are varied but 
they all, ultimately, impact the visitor experience.
    Whether it is the $5.5 million needed to replace and 
upgrade electrical and wastewater utilities along Lake McDonald 
or the $92,000 to repair a water line that crosses Rose Creek 
in the Rising Sun concessions area, visitors to the national 
parks deserve a basic, functioning infrastructure that, 
remarkably, actually works.
    Over the years the deferred maintenance backlog has grown, 
some would say, uncontrollably, into the large figure of $11.6 
billion that we see today. This can be attributed to a variety 
of factors including the acquisition of additional park units, 
without funding, and challenges to prioritize funding for 
certain projects like wastewater and water systems.
    Despite many efforts by Congress and federal and non-
federal stakeholders, the deferred maintenance backlog 
continues to grow. It is growing every hour. I am pleased that 
both the current Administration and my colleagues, both on and 
off this Committee, on a bipartisan basis, have accepted this 
very daunting challenge of arresting the growing deferred 
maintenance backlog in our parks.
    Now solving this problem is not going to be easy. But if we 
do work together to pull something together here, as the 
Ranking Member and I were just speaking about, we might 
actually get something done. I believe we are up to the task.
    We face challenges ahead, including, at a minimum, finding 
the funding necessary for any solution that we all ultimately, 
can agree on. In addition, we will likely hear about the need 
to resolve deferred maintenance backlogs on other public lands 
which, of course, are worthy of discussion.
    It is important to me that any legislation that moves 
forward regarding offshore and mineral revenue, protects 
existing programs, such as the Land and Water Conservation Fund 
(LWCF). In my opinion, LWCF still needs permanent 
reauthorization and full funding and the clock is ticking. 
Senate bill 3172 does have those protections and I believe we 
can keep our commitment to both, but we must not hold back one 
priority at the expense of another. Therefore, I believe that 
both these bipartisan priorities should move quickly to ensure 
the needs of public lands are taken care of.
    I look forward to a robust discussion on this bill today.
    Again, I would like to thank Senators Portman and Warner, 
Alexander and King, as well as their staffs, for truly all the 
hard work that has gone into this legislation thus far and to 
make this hearing possible today.
    The purpose of this hearing is to consider the 
Administration's and stakeholders' views on Senate bill 3172 
and allow Committee members an opportunity to ask questions.
    We will also include written statements that have been sent 
to the Subcommittee in the official hearing record.
    The complete agenda and witness list will also be included 
in the hearing record, without objection.
    [Agenda and witness list follow:]
      
      
      
      

                          UNITED STATES SENATE

                        COMMITTEE ON ENERGY AND 
                           NATURAL RESOURCES

                     Subcommittee on National Parks

                        Wednesday, July 11, 2018

                  National Parks Subcommittee Hearing

                             AGENDA

                   S. 3172, the Restore Our Parks Act

                          WITNESS LIST

                      The Honorable Mark R. Warner

                         United States Senator

                           Ms. Lena McDowall

             Deputy Director, Management and Administration

         National Park Service, U.S. Department of the Interior

                           Ms. Marcia Argust

                   Director, Restore America's Parks

                         Pew Charitable Trusts

                          Ms. Kristen Brengel

                   Vice President--Government Affairs

                National Parks Conservation Association

                           Ms. Holly Fretwell

                 Outreach Director and Research Fellow

                Property and Environment Research Center

    Senator Daines. We have five witnesses here today.
    First, Senator Warner will be joining us to provide a brief 
statement about Senate bill 3172, following opening remarks.
    Welcome, Senator Warner.
    I will yield to my Ranking Member here.
    Is your schedule okay? Okay.
    We will yield to you, Angus, and then we will go to Senator 
Warner next.

             STATEMENT OF HON. ANGUS S. KING, JR., 
                    U.S. SENATOR FROM MAINE

    Senator King. Mr. Chairman, I am absolutely delighted to be 
here today. I think this marks a milestone and an opportunity 
for us to accomplish something important for the people of this 
country. Also, it is an important opportunity to address a 
serious infrastructure failing.
    When I was Governor of Maine, we used to go to New York to 
talk about bond ratings, and I used to talk about how little 
debt we had and how we did not borrow much money. One of the 
analysts stopped me and said, ``Governor, if you're not fixing 
your infrastructure, that's debt. It's debt, exactly as if it's 
debt on your balance sheet, and it's got to be paid and it's 
going to have to be paid, usually with interest, in the sense 
of increased maintenance costs.'' So this is a debt that we are 
paying, that we owe to the people of this country.
    When I left office as Governor in 2003, my wife and I and 
our two children, who were then 12 and 9, took off in a RV for 
five and a half months and we circumnavigated America. In the 
process, we went to 14 national parks and innumerable national 
monuments. So this issue is very dear to my heart. The national 
parks, as Franklin Roosevelt said, ``This is America.'' They 
are a wonderful part of our country.
    The parks are in trouble, however. The Chairman gave the 
stark numbers, almost $12 billion in deferred maintenance.
    And in Maine, for example, in Acadia National Park, we have 
about $80 million of deferred maintenance. By the way, Acadia 
is not the most visited national park in the country. I think 
that honor goes to Yellowstone, but I would venture to say it 
is the most visited national park in the country per square 
foot.
    [Laughter.]
    It is one of the smallest national parks and yet we have 
three million visitors a year which, by the way, is twice the 
population of Maine. So on a sunny day in August, Acadia 
National Park is about our third largest city.
    It is a hugely important part of the economy of the region, 
and to jeopardize what is essentially an economic magnet 
because of a failure to provide maintenance is just short-
sighted in the extreme. We have an old maintenance building at 
Acadia which, if it fails, will probably result in the closure 
of the park for some time.
    The other piece is, of course, while we have this 
infrastructure problem, we are seeing a significant increase in 
visitation. In Acadia, the visitation has gone up something 
like 50 percent in the last seven or eight years. So we have 
more people coming but parks are less capable of absorbing 
them.
    That is why I am just delighted to be co-sponsoring this 
bill. I think this is an opportunity to really do something 
important.
    I want to underline what the Chair said, we are also 
extremely committed to the Land and Water Conservation Fund. I 
do not see this bill as in any way competitive with that. We 
need to move forward with the permanent reauthorization. This 
does not take money out of the same pot. This is an opportunity 
to fix a specific problem. And I hope that we can work 
together, both on this in the immediate future and on the Land 
and Water Conservation Fund before the end of September.
    More and more people are getting out to enjoy our parks. 
Some have even put down their phones when they do so. We are 
hoping to encourage more of that, but certainly, we want the 
parks to be safe, accessible and welcoming to the millions of 
visitors for whom they are such a valuable asset in our 
country.
    So I thank our witnesses, I thank the sponsors of the bill 
and I suppose we will turn it over to Senator Warner.
    Senator Daines. Senator King, thank you.
    I am just going to introduce the witnesses briefly, and 
then I know Senators have a few comments and then we are going 
to turn it to Senator Warner.
    Next to Senator Warner, starting over on this side here, we 
are joined by Ms. Lena McDowall, Deputy Director, Management 
and Administration, National Park Service, U.S. Department of 
the Interior. Thank you for being here.
    Ms. Marcia Argust, the Director of the Restore America's 
Park campaign from Pew Charitable Trust, has also joined the 
panel today. Thank you.
    Then we have Ms. Kristen Brengel, Vice President of 
Government Affairs for the National Parks Conservation 
Association.
    And last, but certainly not least, we have another Montanan 
here, Ms. Holly Fretwell, who hails from our great state and 
also serves as the Outreach Director and Research Fellow for 
the Property and Environment Research Center.
    Welcome to the witness table here today. Thank you for 
making time to be here.
    Before we turn to Senator Warner, I am going to ask if 
there are any Senators who would like to make a short statement 
before we proceed.
    Senator Portman.

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Mr. Chairman, thank you so much for having 
this hearing and for co-sponsoring the legislation and for your 
passion for the parks. As you have told me, you not only grew 
up in the shadow of Yellowstone, but you continue to frequent 
it.
    And to Senator King, I know about your passion for Acadia. 
I am going to challenge you on whether Cuyahoga Valley National 
Park has more visitors per capita which is snuggled in between 
Akron and Cleveland, Ohio. It is the number 13th most visited 
park in the country. It is not big, but it is mighty.
    Let me just say today we are here to talk about this 
legislation and to get your input, and we really appreciate it. 
I want to thank all the organizations represented here and 
others who could not be here who have worked with us over the 
last couple years to get to this point.
    More importantly, this is a bit of a Kumbaya moment in that 
we are coming together, and that does not happen easily around 
this place. And it does not mean that it is over, by the way. 
We have a lot of work to do to get this enacted into law as the 
Chairman and the Ranking Member were saying, but we would not 
be at this point but for some compromises and, frankly, 
sacrifices that some members have made to move this process 
forward. I just want to acknowledge two quickly.
    One is Senator Alexander, who introduced legislation with 
Senator King that the Administration was supportive of and has 
been willing to work with us to come up with, again, this 
legislation that, I think, meets the needs that Senator Warner 
and I had laid out over the last couple years with those sewn 
away we believe the Administration will be able to support. 
Right, Ms. McDowall?
    [Laughter.]
    Then second, and I really want to be sure that you all 
understand, Mark Warner came to me a couple years ago to say, 
hey, I know you guys have been trying to work on this issue of 
deferred maintenance and you've done a little bit here and 
there, like with the Centennial match program, which was my 
legislation, which helps, but frankly, it is hundreds of 
millions, not billions, that is needed--and this was really 
Mark Warner's idea. So he is here to talk a little about it 
today, but I want to thank him for his willingness to take this 
idea and then mold it into something that can actually get 
passed into law. Not all Senators would be willing and able to 
do that. I want to thank him personally for his commitment to 
this and to all my colleagues for their support and long-
standing interest in the parks. There is nothing more important 
to our natural legacy than keeping these parks in pristine, 
good condition.
    And that is our problem. You know, we do like to expand the 
parks. We do like to add more responsibilities to the parks. We 
are not very good at dealing with the infrastructure needs of 
the parks.
    In my own State of Ohio, we have about a $100 million 
backlog, although we are not as big as some of you in terms of 
our parks, that is a lot of money. We just simply can't find 
it, even with the Friends groups and all the other work that we 
have tried to do with our matching funds. We have to have this 
legislation.
    I agree with what Chairman Daines and Ranking Member King 
said. This has nothing to do with taking money away from the 
Land and Water Conservation Fund or any other purpose. It has 
to do with funding that otherwise would go to the Treasury and 
redirecting it for an urgent need we have.
    Frankly, if it is a $12 billion shortfall which, I believe, 
is roughly accurate, we are going to get about halfway there in 
five years. We have more work to do, but this is going to 
enable us to address the most urgent needs.
    I really appreciate the fact that, again, everybody has 
come together to try to figure out how to get to yes.
    Thank you, Mr. Chairman.
    Senator Daines. Thank you, Senator Portman.
    It is nice to see Senators bragging about their national 
parks today, isn't it?
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman, and thanks to 
Senators Portman, Warner, Alexander and King. I was a co-
sponsor of this first bill and proud to co-sponsor this bill, 
excited to be a part of it.
    I was in Rocky Mountain National Park this past weekend, 
met with our Superintendent there, Darla Sidles, talking about 
the needs of Rocky which is over $200 million in terms of 
deferred maintenance needs. That is $200 million alone for 
Rocky and then you look at the needs of Mesa Verde, you look at 
the needs of the Great Sands National Park. This is an 
incredible opportunity for us to do something bipartisan, do 
something good for a great generational change an idea.
    So Rocky Mountain National Park is home to the highest 
paved road in America. Elevation goes from 7,600 feet to 14,259 
feet, in case you are----
    Senator Daines. There are a lot of things high in 
Colorado----
    Senator Gardner. Be careful about that. Be careful about 
that.
    [Laughter.]
    Senator Daines. That is right.
    Senator Gardner. I knew that was coming. You can't avoid 
it.
    [Laughter.]
    But when I was there last weekend, traveling through the 
park we saw a bear, we saw a bear cub. We had elk all over the 
place.
    The national parks are a glorious idea, and I think this 
legacy legislation really proves that we can work together in a 
way that will benefit Americans for generations to come.
    [The written statement of Senator Gardner follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Daines. Thank you, Senator Gardner.
    Senator Alexander.

              STATEMENT OF HON. LAMAR ALEXANDER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman and Senator King.
    Welcome to the witnesses, especially to Senator Warner, 
about whom I will have more to say in just a minute.
    We greatly value diversity in our country, but what really 
is remarkable is when we bring all that diversity in to make 
this one country and an idea that unifies us, as much as any 
other idea, is our love for our national parks and they are not 
in good shape right now.
    The Look Rock Campground on Chilhowee Mountain, Senator 
Portman knows where that is, has been closed since 2013. It is 
in the Great Smoky Mountains National Park. Five thousand 
families a year could use it, but now they can't because there 
is not enough money to make the repairs to the bathrooms and to 
the roofs and the other places it needs to be there.
    Just as Senator Gardner said, in the Smokies, which is our 
most visited national park, there are about $220, $215 million 
of deferred maintenance needs and the annual appropriation for 
the Smokies every year is only $20 million--and we do not have 
an entrance fee because we gave the park to the Federal 
Government.
    So the deferred maintenance is ten times the amount of the 
appropriation, the revenues we have every year. We will never 
get it done without some extraordinary effort, which this is.
    I want to echo what Senator Portman said. There is an old 
bromide in the Senate which is so true--that you start getting 
things done when you don't mind who gets the credit--and it is 
absolutely true that Senator Warner working with a whole bunch 
of groups and others came to Senator Portman and they created 
an excellent piece of legislation.
    I worked with Senator King. We created one. But our goal 
was to get a result and I think what we have done here, thanks 
to the leadership of Senator Warner and Senator Portman and 
every Senator here, is that we've got together just the right 
policy, thanks to support from Secretary Zinke and the 
President. Remember, we could not get this done if the Office 
of Management and Budget did not support it which is why it is 
so important to have Senator Portman who used to have that job 
on our side to explain to some Republicans why that is a good 
idea. So we have the right mix of policy, we have the right mix 
of bipartisan support and we have an excellent, excellent 
product.
    Chairman Murkowski has been terrific in helping to arrange 
with Chairman Daines for this Subcommittee hearing. I hope we 
can get dozens of Senators on both sides to co-sponsor this 
bill. I hope the bill will pass the House.
    And then one other thing, which I want to say gently, there 
are--any time in the United States Senate you see a train 
moving that you are sure will get to the station, you start 
throwing as much baggage on it as you can because you want to 
get to the station too.
    [Laughter.]
    And there are lots of very good ideas that all of us 
support. But if we try to put too much baggage or maybe even 
any more baggage on this train, we won't get to the station 
because this is a pretty big lift to start with. This would be 
the most significant piece of legislation in support of the 
national parks in more than half a century. I don't think there 
is any doubt about that. So I hope that we will keep our eye on 
the ball, both on the Democratic and Republican side, both with 
the President and with the various conservation and 
environmental groups, and that we can continue to work together 
to pass a range of programs that we are all for. But if we can 
actually get this done, we need to get it done this year.
    We need to hit while the iron is hot, while we have the 
support of the conservation community, while we have the 
support of the President, while we have bipartisan support in 
the Senate and the House. We ought to grab it and go and get to 
work on the national parks.
    I will end by saying thanks to Senator Warner, thanks to 
Senator Portman, thanks to every Senator here and thanks to all 
who have worked on this. I think we have a perfect product, but 
now let's see if we can get the train to the station without 
too much baggage on it.
    Thank you.
    Senator Daines. Thank you, Senator Alexander.
    It truly is good policy. It has been good people producing 
good policy here.
    I want to thank all the Senators here who worked so well 
together. Truly, it has been great. And then we have Director 
Mulvaney, Secretary Zinke and the Administration working with 
us. This is a very good thing.
    Thanks for your comments, Senator Alexander.
    Senator Hirono.

              STATEMENT OF HON. MAZIE K. HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you very much, Mr. Chairman.
    Very briefly. This is one of the few issues--the fact that 
we need to provide support for our national park infrastructure 
needs--enjoying near universal support. Who would have thunk 
it?
    I totally agree with you, Senator Alexander, that we have 
to strike while the iron is hot and, of course, in Hawaii we 
have something on the order of over $238 million worth of 
deferred maintenance needs.
    Thank you very much for bringing us all together and let's 
move this legislation. We are one akin to it that we can all 
support.
    Thank you.
    Senator Daines. Thank you, Senator Hirono.
    It looks like we have all the senators on the record. All 
member statements will be added to the official hearing record.
    Before moving to witness testimony, Senator Warner, there 
has been a lot said about you already. You will provide opening 
remarks. Welcome to the Committee today. Thank you for all your 
hard work on this legislation. I understand you have a few 
words to say, and we welcome your testimony.

               STATEMENT OF HON. MARK R. WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well, Chairman Daines and Ranking Member 
King, members of the Subcommittee, thank you for the 
opportunity to appear before you today.
    Apologies, it is only in the U.S. Senate that you arrive 
here last and then jump line in front of all the other 
witnesses, but thank you to all the great groups who I know are 
going to add their voice to support this very important 
legislation.
    Let me acknowledge, and we don't get to do this nearly 
enough in the Senate these days, but let me make a couple of 
personal thanks. First, personal thanks to Rob Portman. It was 
a couple years back I came to him with this idea. He had been 
working, as he had mentioned, on this subject. We had a 
slightly different angle on how we might approach it. He has 
hung in through thick and thin as we put forward legislation 
that was slightly more ambitious. It would have bitten off the 
whole $11.6 billion backfall or backlog. But he and I stuck 
together through this and that kind of stick-to-itiveness is 
something that I am grateful for and will remember for a long 
time.
    I also want to thank Senator Alexander and Senator King who 
had competing legislation. I want to echo what Lamar has 
already said--if we can actually get something done here, whose 
name appears on the bill will be long forgotten compared to the 
incredible value that will be added to our national parks which 
are part of our most important historic assets and historic 
content. So I think we are at a point in time that doesn't come 
near enough.
    I want to make a couple of quick comments about this 
legislation, then I will let this much more informed panel make 
their presentations.
    We are at $11.6 billion in maintenance backlog and, as a 
fellow Governor, I completely agree with Senator King. Deferred 
maintenance is part of a debt, part of a deficit, and each year 
that we allow this deficit to increase, the challenge gets 
greater. As a matter of fact, over half of our park assets are 
in some level of need of deferred maintenance. Every member has 
mentioned a park in their respective state.
    Let me just cite two examples in Virginia. In Virginia, the 
Colonial National Historical Park, which is the home of 
historic Jamestown and the Yorktown Battlefield, which I hope 
you saw, Senator King, when you went on your tour.
    Senator King. One of my first stops.
    Senator Warner. One of your first stops.
    We now have, on that one park alone, deferred maintenance 
over $420 million.
    Last year alone, Virginia's deferred maintenance in terms 
of national parks added $250 million to the total. We're now at 
over $1 billion. We are third behind only California and the 
District--and this is not a place where I'd like Virginia to be 
in the top--but we are third in terms of total deferred 
maintenance.
    If we do not take this action and the legislation that 
Senators Portman, Alexander, King and I now know the Chairman 
and others will join, where we can strike while the iron is 
hot, take advantage of funds that are already being collected 
by the Federal Government and echoing what all the other 
sponsors have said, that in no way would interfere with funding 
or support for the Land and Water Conservation Fund and other 
valuable, valuable entities. But we put this legislation 
through over the five years that would have had the 
Administration support for. We are going to get over $6 billion 
in revenues. We will be able to take down at least about 50 
percent of that deferred maintenance and all of the items that 
are in the most critical need.
    I know the witnesses will testify that with more detail, 
but let me echo what all my colleagues have said. This is the 
time. The time is right. The bipartisan nature is right. The 
support of the Administration is critical. Let's get this done.
    And echoing Senator Alexander, let's make sure that it 
doesn't get loaded up with too many other items. This would be 
a signing ceremony I would even show up at the White House for.
    [Laughter.]
    Thank you, Mr. Chairman.
    Senator Daines. Alright, thank you Senator Warner.
    It is now time to hear from our----
    Senator Warner. Presuming that I would be invited, let me 
presume.
    [Laughter.]
    Senator Daines. It is time to hear from our witnesses. We 
will start with Ms. McDowall.

  STATEMENT OF LENA MCDOWALL, DEPUTY DIRECTOR, MANAGEMENT AND 
 ADMINISTRATION, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Ms. McDowall. Thank you.
    Chairman Daines, Ranking Member King and members of the 
Subcommittee, thank you for the opportunity to present the 
Department of the Interior's views on Senate bill 3172, the 
Restore Our Parks Act.
    I would like to summarize my testimony and submit my full 
statement for the record.
    The Department supports Senate bill 3172, the Restore Our 
Parks Act. This legislation closely aligns with the 
Administration's FY'19 proposal to establish a fund dedicated 
to our public lands infrastructure needs.
    We appreciate that this bill combines the elements of both 
S. 751, the National Park Service Legacy Act, and Senate bill 
2509, the National Park Restoration Act, to accomplish the goal 
of providing consistent and reliable funding to address the 
National Park Service's deferred maintenance backlog.
    S. 3172 would establish a separate account within the 
United States Treasury called the National Park Service Legacy 
Restoration Fund with potential deposits to the fund of up to 
$1.3 billion per year and up to $6.5 billion for the five-year 
deposit period, this measure will help to substantially reduce 
the National Park Service $11.6 billion deferred maintenance 
backlog.
    The bill requires 65 percent of funds to be used for 
buildings, utilities and visitor facilities and 35 percent to 
be used for transportation projects.
    Along with the annual funding the National Park Service 
receives from the Department of Transportation, this brings the 
transportation and non-transportation split to roughly 50/50.
    The Fund also allows for public donations in the form of 
cash or in-kind donations. This allows the National Park 
Service to expand and encourage relevant public-private 
partnerships that work toward the reduction of the deferred 
maintenance backlog.
    Deposits to the National Park Service Legacy Restoration 
Fund would come from all sources of federal energy development 
revenues, including both renewable and conventional sources 
such as oil, gas and coal and not from taxpayer dollars. This 
aligns with the Administration's all-of-the-above energy 
development strategy.
    It is important to note that the fund would not change or 
modify established revenue sharing payments to the states under 
the Mineral Leasing Act, the Gulf of Mexico Energy Security Act 
or other statutes, nor would it affect deposits to other 
established funds such as the Reclamation Fund, the Land and 
Water Conservation Fund or other dedicated uses of onshore and 
offshore revenues.
    These existing uses would receive all of their dedicated 
funding before the fund receives anything. After all existing 
obligations are met, 50 percent of the revenue that would 
otherwise be deposited as miscellaneous receipts will be 
deposited into the fund to address the National Park Service 
maintenance backlog.
    Appropriated funds are currently the primary source of 
funding for deferred maintenance, but as the Secretary 
indicated earlier this year before this Committee, we cannot 
rely solely on appropriated dollars to address this problem. 
Without a dedicated funding source, the deferred maintenance 
backlog will only continue to grow.
    The backlog of projects at our national parks impacts park 
visitors' access, recreational opportunities and experiences. 
The network of roads, trails, restrooms, water treatment 
systems, drinking water and visitor centers are aging and are 
exceeding a capacity they were often never designed to hold and 
support.
    We greatly appreciate the effort of this Committee, 
Chairman Daines, Ranking Member King, Senators Portman, 
Alexander, Warner, Capito, Gardner, Manchin, Blunt, Tillis and 
Heinrich, who have sought to craft real solutions to our 
maintenance backlog.
    As the Secretary has mentioned multiple times, our public 
lands are not a Republican or a Democrat issue. They are an 
American issue. The bipartisan proposal before us today 
reflects his sentiments providing real solutions for each and 
every person who visits our national treasures.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
    [The prepared statement of Ms. McDowall follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Daines. Thank you, Ms. McDowall.
    Ms. Argust.

STATEMENT OF MARCIA ARGUST, DIRECTOR, RESTORE AMERICA'S PARKS, 
                   THE PEW CHARITABLE TRUSTS

    Ms. Argust. Chairman Daines, Ranking Member King and 
members of the Subcommittee, thank you for holding this hearing 
today on the bipartisan Restore Our Parks Act, S. 3172, 
legislation to help address the $11+ billion backlog of repairs 
plaguing our National Park System.
    I request that my full written statement be submitted for 
the record.
    I'm Marcia Argust and I direct The Pew Charitable Trusts 
Restore America's Parks campaign which seeks to protect our 
national parks by pursuing long-term solutions to the deferred 
maintenance backlog.
    Resources impacted by the backlog include trails, visitor 
centers, campgrounds, battlefields, iconic memorials, roads 
that provide access for visitors, historic buildings and 
cultural structures.
    Pew strongly endorses S. 3172. If enacted, this commonsense 
legislation presents a real path forward in restoring the 
integrity of park resources and facilities.
    Pew has been working with sponsors of previously introduced 
deferred maintenance bills, specifically the National Park 
Service Legacy Act and the National Park Restoration Act, to 
develop a measure that incorporates the best components of each 
of these bills and that draws support from across political 
lines and the Administration.
    The Restore Our Parks Act has accomplished these goals and 
Pew applauds Senators Portman, Warner, Alexander, King for 
their collaborative work in crafting this new consensus 
initiative. Senator Portman used the word sacrifice. Members 
truly put aside their need for personal accolades to put this 
bill forward. We recognize that and greatly appreciate it.
    I'd like to highlight several provisions of this bill.
    It would provide reliable annual funding for priority 
national park repair needs.
    While a range of solutions should be pursued to address 
maintenance needs within the Park System, the key to success 
and to enabling the Park Service to get a handle on the 
compounding challenge of the backlog is funding certainty.
    The legislation would facilitate a potential $6.5 billion 
drawdown in the repair backlog by establishing a fund in the 
U.S. Treasury that would direct monies to priority park 
maintenance. The fund would have an annual revenue cap of $1.3 
billion each year.
    Past mineral revenue data from the Department of Interior 
indicates that even during low energy production years, the 
$1.3 billion cap is likely to be reached each year. This would 
provide the consistent annual funding that the Park Service 
needs to help stem the escalation of its backlog.
    Another aspect of the legislation worth noting is its 
revenue source. The fund would be financed with unobligated 
annual federal mineral revenues such as royalties from onshore 
and offshore oil and gas operations, as well as renewables.
    S. 3172 recognizes the importance of these and other 
programs and like LWCF and the historic preservation fund, and 
it includes provisions to ensure that efforts to fund deferred 
maintenance do not happen at their expense. Language in the 
bill stipulates that the park deferred maintenance fund would 
receive 50 percent of revenues that are not otherwise credited, 
covered or deposited under federal law.
    The language goes further and states that the fund shall 
not affect revenues that are due to special funds, trust funds 
or states, nor shall it affect revenues appropriated under 
federal law for programs like GOMESA, the Mineral Leasing Act 
and LWCF.
    I'd like to spotlight, as well, language in the bill that 
directs use of the funds to restore priority park assets. This 
provision is in line with the Park Service's current asset 
management system that focuses limited funds on maintenance 
projects that are deemed mission critical, and it will ensure 
that funds would be used wisely.
    Ignoring deferred maintenance needs in our national parks 
or addressing them in a piecemeal fashion is not sound policy. 
Our National Park System generates hundreds of thousands of 
jobs and billions of dollars for local economies each year. Our 
parks provide access to world class recreation and park units 
document our nation's history.
    Support and enactment of the bipartisan Restore Our Parks 
Act is a wise investment in a system that has overwhelming 
support from the American public, including almost 3,000 local, 
state and national organizations that support directing more 
resources to restoring our park treasures.
    Thank you for your serious consideration of S. 3172, and 
I'm happy to address any questions you may have.
    [The prepared statement of Ms. Argust follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Daines. Thank you, Ms. Argust.
    Ms. Brengel.

  STATEMENT OF KRISTEN BRENGEL, VICE-PRESIDENT FOR GOVERNMENT 
        AFFAIRS, NATIONAL PARKS CONSERVATION ASSOCIATION

    Ms. Brengel. Good afternoon, Chairman Daines, Ranking 
Member King and the members of the Subcommittee. Thank you for 
inviting me to testify today.
    I'm Kristen Brengel, Vice-President of Government Affairs 
for the National Parks Conservation Association, the leading 
national independent voice for America's National Park System.
    We appreciate the opportunity to provide our views 
regarding the Restore Our Parks Act. We are extremely grateful 
to Senator Portman, Senator Warner, Senator Alexander and 
Senator King for your leadership on this issue, and we 
appreciate that of the Administration as well.
    National parks are among few places families can see star-
filled night skies, hear the sounds of wolves and waterfalls 
and experience places where American heroes fought for our 
democracy and our right to vote. Funding to operate and repair 
our 417 national park units has broad public support because we 
value these incredible places.
    The national parks repair backlog is one of the most 
critical funding issues facing the Park System, but it is not 
the only issue. Parks are suffering from severe understaffing, 
outdated interpretation and threaten natural and cultural 
resources. We are confident that significantly reducing the 
repair backlog will bring more attention to the other critical 
needs.
    There has been a long history of insufficient investments 
in park infrastructure. We commend Congress for increasing 
funding for park transportation infrastructure and for 
increasing appropriations for non-transportation deferred 
maintenance over the last five years. These sources continue to 
be increased, but ultimately dedicated funding is needed, given 
the large scope of the problem which many of you have already 
mentioned. So we're pleased to testify in full support of the 
bill.
    Some national parks are over 100 years old, and it's 
showing. Park infrastructure hasn't received the requisite 
capital investment for cyclical maintenance or construction 
projects. Marinas, trails, roads, bridges and visitor centers 
are in disrepair.
    Historic assets represent 45 percent of the maintenance 
backlog. This includes historic homes, forts, battlefields and 
other assets preserving our unique American history, and they 
are threatened with the possibility of irreparable harm if we 
don't address this problem. Historic properties at Cuyahoga, 
roads at Shenandoah, Acadia's park headquarters and the Grand 
Loop Road at Yellowstone are just a few examples of important 
repair needs.
    Parks have been in triage mode, making repairs when funding 
is available and, sadly, shifting resources from other areas to 
try to address maintenance needs. The National Park Service has 
not been in a position to complete important repair projects as 
a consequence and this is no way to take care of our parks.
    We appreciate the Restore Our Parks Act includes several 
helpful components. Chiefly, the bill provides certainty of 
funding which ensures the Park Service can finally address 
these overdue projects. Also very helpful is no limit for using 
the funds and this is an important one which will allow the 
Park Service to carefully plan and implement large multiyear 
projects. This will ensure these overdue projects will finally 
get done and that is a prospect we should all be pulling for.
    The reality is the backlog challenge will be reduced 
substantially but won't be entirely solved with this bill. We 
ask that you consider evaluating the fund's progress in five 
years and then consider extending it to keep the problem from 
growing again.
    Parks also badly need sustainable operational funds. 
Staffing losses over the last five years are becoming more 
noticeable in many national parks, and we've experienced 
backcountry rangers becoming almost parking managers in many 
parking lots. Popular national parks have had a surge in 
visitation in the last few years and there simply aren't enough 
staff to handle the influx of visitors. This lack of staff also 
affects park staff ability to address wildlife habitat 
restoration, the spread of invasive species, overcrowding of 
popular sites, watershed restoration and maintenance and 
repairs.
    Another critical issue facing our parks is acquiring the 
many inholdings inside park boundaries. The Land and Water 
Conservation Fund is the successful conservation program that 
addresses this issue. It should receive increased 
appropriations and reauthorization as well as dedicated funding 
which many of you have mentioned.
    In conclusion, we urge quick action to advance the Restore 
Our Parks bill, to address high priority, desperately needed 
repair and restoration projects for the benefit of park 
resources and for the enjoyment of millions of American 
families who visit them every year.
    Glacier, Cuyahoga, Gettysburg, the Great Smokies, Mesa 
Verde are iconic American places. They're incredibly popular 
with the American public who enjoy them and learn about their 
stories. They are as profound as they are invaluable.
    By moving this bill forward, your commitment to them will 
be deeply appreciated by all Americans.
    Thank you again for the opportunity to testify and I'd be 
happy to answer your questions.
    [The prepared statement of Ms. Brengel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Daines. Thank you, Ms. Brengel.
    Ms. Fretwell.

  STATEMENT OF HOLLY FRETWELL, OUTREACH DIRECTOR AND RESEARCH 
    FELLOW, PROPERTY AND ENVIRONMENT RESEARCH CENTER (PERC)

    Ms. Fretwell. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to provide testimony on the 
future of our national parks and solutions to the National Park 
Service's deferred maintenance backlog.
    My name is Holly Fretwell. I'm a Research Fellow and 
Director of Outreach at the Property and Environment Research 
Center (PERC) where I have studied public lands for more than 
two decades. PERC is the nation's leading institute dedicated 
to exploring market-based, entrepreneurial solutions to 
environmental problems.
    Living in Bozeman, Montana, I am lucky to have Yellowstone, 
Grand Teton and Glacier National Parks in my backyard. I'm an 
avid skier and hiker as well as a frequent visitor to our parks 
and other public lands. I'm passionate about ensuring these 
treasured landscapes are around for my children and their 
children to enjoy.
    In my testimony today, I will offer support for the Restore 
Our Parks Act. Addressing the deferred maintenance problem must 
be a priority to ensure our parks are preserved and available 
for enjoyment today and in the future. I will also provide a 
few ideas to help the agency better address its maintenance and 
operational shortfalls.
    Conservation is ultimately about caring for and maintaining 
our lands and resources. Yet, Congressional annual 
appropriations for the National Park Service do not cover the 
cost to preserve the parks for present and future generations. 
Currently, as estimated at $11.6 billion, the agency's deferred 
maintenance backlog impairs the public enjoyment of America's 
parks. If conservation truly is about caring for what you own, 
the maintenance backlog is a reminder that we are not being 
good stewards of our public lands. At its core, addressing the 
maintenance issue is about ensuring families and visitors enjoy 
their experiences in our national parks. That is a fundamental 
principle of the Organic Act.
    In 1997 my colleague, Don Leal, and I researched the state 
of our national parks. We wrote, ``Our national parks are in 
trouble. Their roads, historic buildings, visitor facilities 
and water and sewer systems are falling apart.'' We estimated 
the maintenance backlog then to be about $5.3 billion.
    The problem persists. Now, more than 20 years later, the 
backlog has more than doubled. This is, in part, because the 
agency's infrastructure is aging, but also because for decades 
park managers have not had adequate, reliable funding to 
maintain park resources and assets. Congress is right to look 
for something more secure and reliable to ensure the future of 
our parks.
    The Restore Our Parks Act sets out to do this and can help 
address the growing deferred maintenance problem better than 
existing tools for a number of reasons.
    First, the Act provides a consistent and reliable dedicated 
fund that is available for Park Service use, importantly, 
without further appropriation or fiscal year limitation. 
Historical reliance on annual appropriations to tackle deferred 
maintenance issues is less reliable because appropriated 
budgets vary annually according to political interest and 
typically have a time spending limit.
    Second, the National Park Service has prioritized deferred 
maintenance projects system wide and can allocate from this 
fund accordingly without further political input.
    Third, the Act creates a quasi-endowment fund by allowing 
the Interior Secretary to invest a portion of the energy 
development revenues and depositing income earned back into the 
fund. This can enhance both the longevity of the fund and the 
resources available for future deferred maintenance projects.
    Fourth, because the fund has no fiscal year limitation and 
deposits can be invested, an endowment fund could be created 
where the principle remains invested and the income on 
investment provides a continuous source of reliable funding for 
maintenance needs.
    Fifth, the fund is dedicated to deferred maintenance and 
cannot be used for land acquisition. Additional assets can add 
to the maintenance problem.
    And finally, the fund will not replace discretionary 
funding. Historically, it has often been the case that new 
agency funding sources are matched by a reduction in 
appropriations. This fund is designed to provide additional 
total revenues for the National Park Service.
    The Restore Our Parks Act would help address the existing 
backlog, but it does not address the underlying challenge of 
inadequate funding for routine maintenance projects. Deferred 
maintenance is the result of not performing routine 
maintenance. As I explain in my written testimony, the Restore 
Our Parks Act could address the routine maintenance issue by 
creating an endowment for cyclic maintenance. My written 
testimony also considers the use of recreation fees to better 
address the routine maintenance funding shortfalls.
    It is important to have more decision-making authority in 
the hands of local officials who better understand the needs on 
the ground.
    It will take multiple creative approaches to adequately 
conserve and maintain our national parks for future 
generations, but the Restore Our Parks Act is a step in the 
right direction to enhance park stewardship.
    I thank you for the opportunity to testify today. My 
interest in seeing long-term conservation of our public lands 
is unwavering. I'm happy to answer any questions.
    [The prepared statement of Ms. Fretwell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Senator Daines. Thank you, Ms. Fretwell.
    I am going to start by yielding to Senator Portman. I know 
he has another meeting coming up.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman. I have the 
nominee for the Supreme Court waiting in my office. I have to 
go see him. And I apologize to my colleagues. I will be very 
brief.
    First of all, the testimony was superb and I think you have 
raised all the good points except the one thing, I think, that 
was very interesting is you all seem to be focused on this 
issue of certainty.
    We had a hearing here in April some of you attended where 
we asked all the witnesses to talk about what the most 
important, single aspect was to getting at the deferred 
maintenance and you talked about certainty so that you can 
plan.
    You talked about large complex projects, Ms. Argust, and 
you also talked about the need for dealing with this because it 
is a compounding problem, in other words, we don't deal with 
it.
    Talk about that just for a second, if you would. What do 
you mean by a compounding problem?
    Ms. Argust. Yes, it's the longer that deferred maintenance 
continues without addressing it, the more costs are going to 
continue to increase.
    One example is Ebenezer Church, for example, in the Martin 
Luther King Historic Site. That roof has not been addressed. 
There are leaks in those roofs, in that roof. Water gets into 
the roof. It gets into the walls, then you have issues with the 
plaster and then you have issues with the paint. So if you 
don't address that roof right away, you're going to have costs 
with other repairs that are happening.
    Senator Portman. I think that is a really important point 
to make, particularly to our fiscally conservative colleagues. 
We all consider ourselves fiscal conservatives, I assume, but 
this is the right thing to do.
    You mentioned it, a conservation ethic, Ms. Fretwell. This 
is part of the being conservative about it.
    With regard to certainty, I will put you on the spot here, 
Ms. McDowall, but you remember there is a cap in here of $1.3 
billion. It is also the 50 percent. Some might argue, well, how 
much certainty is there in that?
    If you look historically, the $1.3 billion will be hit 
based on the last ten years, but you could also look 
prospectively and say, what is likely to be the royalties? 
Isn't it true that there are plans to continue to use our 
natural resources in this country? This Administration, in 
fact, seems to want to expand that, if anything. So there seems 
to be a high certainty there would at least be the funding 
available that has been there over the last several years.
    Ms. McDowall. Yes, not, of course, knowing the details on 
projections going forward, but yes.
    Senator Portman. You said it right.
    [Laughter.]
    No, but I think that is a point to be made. So I think 
there is certainty here of the kind we are looking for.
    You also talked about, Ms. Fretwell, the need for us to 
have some sort of a fund, almost an endowment, and I really 
look forward to seeing your testimony where you talk in more 
detail about that, that you submitted for the record.
    But you are right, one thing people have not noticed in 
this bill is that we actually do provide for some rate of 
return which is very unusual in government. I think this is a 
positive aspect of it so that we will be able to allow the Park 
Service Director to be able to set some funds aside and get 
more funds to be able to address some of these really 
difficult, long-term problems. So, it may not be the full 
endowment you are looking for, but it is a step in that right 
direction.
    Thank you, Mr. Chairman. I really appreciate your giving me 
indulgence, and I appreciate my colleagues.
    Senator Daines. Thank you, Senator Portman.
    Ms. Fretwell, I am going to start with you.
    Thank you for taking the time to fly all the way here from 
Bozeman. I can tell you, I know it is a true sacrifice to leave 
Bozeman and come to Washington, DC, in July.
    Your testimony mentions, as a potential solution, the 
creation of an endowment that could address both cyclic as well 
as deferred maintenance needs. Would the creation of an 
endowment, you think, better address the overall budgetary 
needs of the National Park System than this current proposal?
    Ms. Fretwell. I am interested in the endowment because, 
again, it provides that certainty as a dedicated fund that's 
available for the Park Service and for park managers to use 
rather than waiting upon appropriations.
    I think this bill is very specific toward the deferred 
maintenance, but I also think it's extremely important for us 
to pay attention to what the cyclic maintenance is and to 
ensure that we have a consistent funding source for cyclic 
maintenance for our park managers.
    I do suggest that a part of that could come from the fee 
revenues as well. We have FLREA that exists out there that's 
set to expire next year. I think permanence of that fund would 
help us in the long run for those routine and cyclic 
maintenance projects.
    Senator Daines. Your written testimony referenced what a 
former NPS Director called the ``thinning of the blood'' which 
is what happens when the overall Park System acreage is 
expanded, but even if appropriations are increased year after 
year, they are not increased at the same pace as park acreage. 
The overall effect is basically a thinning of park resources.
    What I would like to ask you is how do we, as Congress, 
continue to ensure the national parks are able to meet its 
mission without continuing to dilute park resources and 
retaining at least some semblance of fiscal responsibility?
    Ms. Fretwell. I think we really need to focus on exactly 
what we have now rather than expanding what is in the parks, 
that means both expanding assets and expanding new parks.
    Those ``thin the blood'' as Ridenour said, and if we really 
want to protect our parks for the future and conserve those 
parks, we need to take the revenues and the receipts we have 
today and put them in the parks that we have today.
    First, we need to make sure that we get a hold of the 
deferred maintenance problem. Part of that deferred maintenance 
problem is that we don't have enough funding for the cyclic and 
routine maintenance. So, after a year when we're unable to 
respond to those issues, they are added to the deferred 
maintenance problem.
    In order to get a hold of that deferred maintenance 
problem, it's not just getting the deferred maintenance numbers 
down, it's also making sure that we can take care of those 
resources that we have existing in our parks today.
    Senator Daines. Thank you.
    I want to switch gears here to Ms. McDowall. Thank you for 
coming here today.
    Since we are dealing with multiple revenue streams, monies 
are drawn from accounts that deposit funds into the Treasury at 
different times of the year. So it can be a little bit lumpy 
and bumpy. In terms of timing, how would you envision the 
timing of the payments to the Legacy Fund taking place?
    Ms. McDowall. So the Department's Office of Natural 
Resources Revenue handles the disbursement process for these 
revenues.
    And as you mentioned, they do come in at different times of 
the year. Our understanding is that no deposits will be made to 
the Legacy Fund under this legislation until the end of the 
year, until all other obligations have been satisfied.
    ONRR has, you know, handles the details of those 
disbursements. I am not as conversant in the details. So, if 
you would like more details on exactly how that works, we can 
provide those for the record.
    Senator Daines. We will follow up on that.
    And then, how would you draft the regulations that allow 
for parity in each of the various types of revenue sources 
currently depositing funds back into the Treasury or is that 
even possible to predict?
    Ms. McDowall. I don't think I have the answer to that 
question. I would have to get back to you for the record on 
that one.
    Senator Daines. Okay, we will work on that.
    Let's get back to this whole certainty piece to make sure 
we have something here that will be very workable and can 
operate well.
    I am going to yield now to the Ranking Member, Senator 
King.
    Senator King. Thank you.
    First, I should say I was a little carried away. Acadia is 
not one of the third or fourth largest towns, but it is a large 
town, about 10,000 people on a busy day, but by Maine's 
standards it is still a large town. I didn't want to overstate 
that.
    Ms. McDowall, how would the projects be prioritized? We are 
talking about a fund that would meet about half the need. I 
understand about this 60/40 split on the roads versus--
buildings versus roads. But how? Is there a process? Have you 
started to think about what would be the most urgent projects 
and how that would be defined?
    Ms. McDowall. So the Park Service does have a strategy that 
we use to prioritize these projects. It's called the Capital 
Investment Strategy. It has a number of criteria, including 
impacts on visitation, resource protection, is it an asset that 
is critical to the mission of that park? We look at health and 
safety, and we also look at financial sustainability. So, is it 
an asset that the Park Service feels it has the funding to 
maintain? We don't want to put significant investment dollars 
into facilities that we do not feel we have the funding or the 
commitment to maintain over the long-term with our operational 
dollars.
    Senator King. So it sounds like you have already got a plan 
in mind. If we can get this bill through, we wouldn't have to 
spend two years thinking about how to allocate the money?
    Ms. McDowall. That is correct.
    You know, one factor in not having enough funding available 
to deal with these things is that we've had to get smarter 
about how we use the funding that we do have. So we do have 
several processes in place.
    Senator King. Good.
    Ms. Brengel, you represent the National Parks Conservation 
Association, a large, non-profit organization that works on 
behalf of the parks. There are lots of other organizations that 
are interested in these park conservation issues. Is it your 
understanding that they are in support of this legislation as 
well?
    Ms. Brengel. Yes, we actually lead a coalition called the 
Second Century Action Coalition, and it's made up of friends 
groups, tourism groups, recreation groups and they're all 
pulling for this bill to move and to pass so that we can get 
proper funding for the maintenance backlog.
    Senator King. Can you estimate how many of such groups 
there are?
    Ms. Brengel. Oh my goodness. Well, those groups combined 
with the ones that we've been working with with Pew are a 
couple hundred.
    Senator King. Good.
    And they know about this bill and they think this is the 
right way to go?
    Ms. Brengel. Yes, since the past week we've been educating 
folks about the bill and you'll be receiving a letter from the 
coalition and from others who are supporting the bill.
    Senator King. Great. Thank you.
    Thank you, Mr. Chairman.
    Senator Daines. Thank you, Senator King.
    Senator Alexander.
    Senator Alexander. Thank you. Thanks to all of you for 
being here.
    Let me continue with--did you say 200 organizations?
    Ms. Brengel. It's a couple hundred organizations.
    Ms. Argust. It's actually--I'll jump in--it's almost 3,000 
if you combine it with the groups who want to see dedicated 
resources for maintenance nationwide, local and nationwide.
    Senator Alexander. Good.
    Ms. Argust. A lot in Tennessee.
    Senator Alexander. Well, let me tell you something that 
would help. This would be nice if this bill had about 98 co-
sponsors.
    Seriously, I think the single thing as I look down the 
road, I think, thanks to your work and the work of Senator 
Warner, Senators Portman and King, the Chairman, others, I 
think we have a very good product. I mean, you support it. The 
Administration supports it. This is a pretty unique 
circumstance. So we have a good product. That is step one.
    What do we need with steps two and three? I think two and 
three are for the House of Representatives to like it as well 
and to pass it. That would help.
    And here in the Senate, I think the thing that would help 
us the most, we have 12 bipartisan co-sponsors of the new bill 
today. Of course, nobody has had much time to see it since it 
is just a few days old. But it would genuinely help our efforts 
to move this through swiftly if the 3,000 organizations would 
let members of the Senate know that they hope they will co-
sponsor this legislation.
    And I would ask you, if it is appropriate, to encourage 
them, to encourage them to do that.
    Ms. Brengel. We'll let them know that you asked them to 
report it.
    Senator Alexander. No, it helps. It helps a lot.
    Ms. Brengel. Yeah.
    Senator Alexander. The practical matter is we have a busy 
time ahead of us and even a partisan time ahead of us which 
isn't unusual. But Senator McConnell has to look at a piece of 
legislation and see if he has time on the Floor----
    Ms. Brengel. Right.
    Senator Alexander. ----for us to consider it. And if we 
have a large number of Democrat and Republican co-sponsors that 
may mean that we can say to him, Majority Leader, this won't 
take much time. We can get a lot of agreement on this if we 
have that kind of support.
    So it is not just an idle request. It is a practical matter 
that is probably, up to now, the single most important thing to 
do is to get the product right.
    I think we have done that with your help and support and 
that of the Administration--which I am very grateful to 
Secretary Zinke for his role in this because he has done an 
excellent job of talking with Office of Management and Budget 
and with the President and it is very good to have that kind of 
support. So that is number one.
    Number two, I think it would help for the public at large 
to understand that when we talk about 417 different properties, 
we are talking about some things they might not normally think 
of as national park properties. For example, the National Mall 
is one such property, right? What is the backlog in deferred 
maintenance at the National Mall right now? Anybody know that?
    Ms. Argust. It's, I think, about $700 million.
    Senator Alexander. Yes.
    Ms. Argust. Based on FY2017 figures, unless you know 
differently and that's approximate.
    Senator Alexander. Yes, and the National Mall is something 
that people come from every single state, almost every 
community, to see and do not want it to be run down.
    I think another, the Great Smokies, has more than ten 
million visitors a year, and we have $215 million in 
maintenance.
    Ms. McDowall, we get an annual appropriation of $20 million 
a year at the Great Smokies. Can you see a way that our $215 
million deferred maintenance backlog would ever be taken care 
of without some extraordinary effort like this?
    Ms. McDowall. Not by just relying on the $20 million a 
year, no.
    Senator Alexander. Yes.
    Ms. Fretwell, you did a lot of studying of the properties. 
Can you mention two or three other properties in the National 
Park System that are badly in need of help that people might 
not be aware of?
    Ms. Fretwell. Well, the ones I focus on are the ones I use. 
So Yellowstone definitely has a lot of water and sewer issues.
    Senator Alexander. Yes.
    Ms. Fretwell. As well as Grand Canyon has water issues.
    Really what I see when I go through my parks is that they 
are not being cared for just from a visual perspective when I'm 
driving through and seeing potholes and trying to use the 
restrooms at Yellowstone National Park and there are huge lines 
and they are outhouses that we're using and there's 30 people 
waiting in line because a bus just came in to use those 
facilities.
    Senator Alexander. Yes.
    Ms. Fretwell. That's not a good way to conserve our 
properties and that's not a good way to show other Americans 
and those visiting our country that these really are the great 
crown jewels that they should be.
    Senator Alexander. My time is up, Mr. Chairman, but I will 
mention my suggestion of how helpful it would be to have a 
large number of Democratic and Republican co-sponsors for the 
bill.
    The other thing that would help is for those who support 
the bill, both in the Senate and outside the Senate, to keep in 
mind that, as a practical matter, it will be easier to move 
this bill through the Senate if it stays this bill and doesn't 
try to attract a lot of other worthy amendments and proposals 
which many of us support. In fact, if it does that what often 
happens when we try to do too much at one time, nothing 
happens.
    So I can see this bill gaining broad support and if we can 
keep to the bill the way it is written, I can see it passing 
this year. I think the two biggest things to help do that are 
one, the largest number of co-sponsors, and two, let's keep the 
train moving without a lot of extra baggage, even if it is 
baggage that all of us like and support. We can work on that on 
another track at another time.
    Thank you, Mr. Chairman.
    Senator Daines. Thank you, Senator Alexander.
    I think about the National Mall, and our national parks 
oftentimes are the first impressions for international visitors 
who come to our country, that is the first place they go is our 
national parks. It is their first impression of America, and 
they will see our crumbling infrastructure right before them.
    Speaking of the schedule too, Senator Alexander, you know, 
the House had a hearing about a month ago. We are pushing the 
House to try to get a markup done before the House recess, so 
before the first part of August. And so, we are pushing this 
hard.
    Again, I echo Senator Alexander's comments. Let's get a 
bunch of Senators on this bill as co-sponsors. Let's make it 
98. Let's make it 100. Let's get everybody on it.
    Give us a good reason why you should not be on it and we 
will go, but I think we really have a chance here with 
Secretary Zinke's leadership, Director Mulvaney. The stars are 
lined up. Let's act.
    Senator King. That would be the layabout House that is 
taking an August recess, right?
    [Laughter.]
    Senator Daines. They do criticize us a bit, don't they?
    Anyway.
    And rightfully so, frankly, Senator King.
    Senator Heinrich.
    Senator Heinrich. Well, I want to start by just thanking 
the Chair and the Ranking Member and all of my colleagues who 
have worked to put this together. I think we have a really 
great start here. It is a bright spot in what has been a year 
that could use some bright spots.
    I guess the first thing I wanted to say is that the reality 
here is that--and maybe Senator King might have used this 
phrase in the past, but it is certainly something I learned 
from bond counsel when I was in government at the local level--
deferred maintenance is debt. It just is. When you choose not 
to invest in things, it is going to cost you more later, and it 
should be reflected in our balance sheet as such.
    And when we have these Park Service jewels that are really, 
truly the economic engines of rural communities across the 
West, of communities all over the country in both rural and 
urban areas, they deserve for us to do something about this.
    So, I'm excited about where we are going here and how 
quickly we have put together the list of co-sponsors we have, 
and I think we all got our marching orders about finding 
additional ones.
    Ms. McDowall, I would be a little bit remiss if I didn't 
mention a specific backlog issue, while I have you here, 
regarding New Mexico.
    I was really excited to see the primary elevators at 
Carlsbad Caverns go back into service last week. It was the 
first time since 2015, as you may know. However, our secondary 
elevators have also proven to be unreliable due to many decades 
of deferred maintenance.
    Do you have the funds to restore the secondary elevators 
identified by the Park Service yet, and what are you expecting 
with regard to a timeline to get those backup elevators up and 
running as well?
    Ms. McDowall. So that will be a large project. The estimate 
right now is close to $19 million, and it is on our line item 
construction list proposed for 2021 at this point.
    Senator Heinrich. Thank you.
    We look forward to working with you on that.
    Ms. Argust, I have a quick question for you.
    Most National Park units in New Mexico are in rural areas. 
That is true for a lot of the West. It is not always true with 
respect to some of our historic Park Service properties in 
urban areas on the East Coast, but it does hold true for a big 
chunk of the Western United States.
    And what we've learned is that protected and specially 
designated public lands, parks, monuments, wilderness areas and 
wildlife refuges provide a critical boost to neighboring 
communities. In fact, a recent joint Economic Committee report 
on rural economic development found that rural communities with 
specially designated public lands like parks and monuments 
recovered more quickly from the 2007 recession than similar 
counties without those amenities.
    How does the park's maintenance backlog specifically affect 
rural communities and how does it impact the economies of our 
gateway communities?
    Ms. Argust. A number of our parks are certainly in rural 
communities or rural areas, as you note and a number of those 
are larger parks. And as you note, parks are certainly economic 
engines.
    So Pew commissioned a study late last year. It showed that 
fully investing in the deferred maintenance backlog has the 
potential to generate more than 110,000 additional 
infrastructure-related jobs.
    So parks already create approximately 306,000 jobs 
annually. That's based on National Park Service data. They also 
bring over 330 million visitors each year to parks, and those 
visitors spend upwards of $18 billion directly in communities. 
So we're talking about the possibility of an additional 110,000 
jobs, infrastructure-related jobs and, you know, jobs in rural 
communities, very important.
    So addressing deferred maintenance, it's important to 
preserving historic resources, landscape resources, but also 
important for the economy.
    Senator Heinrich. Thanks for your thoughts on that.
    Mr. Chair, I don't want to ever disagree with our colleague 
from Tennessee because he is very wise counsel, but I would 
urge us also to come together around some of the other things 
that historically we have been able to come together around, 
including the Land and Water Conservation Fund and taking care 
of our wildlife as well. I know those are priorities in 
Montana, but I would be remiss if I didn't mention those.
    Thanks.
    Senator Daines. Thank you, Senator Heinrich.
    Senator Barrasso.
    Senator Barrasso. Well, thank you very much, Mr. Chairman. 
I do appreciate this opportunity to have you all testify and to 
have this discussion today, particularly as many of our 
national parks are in the middle of peak tourist season.
    I am happy to see my colleague and friend from New Mexico 
here as well because Wyoming and New Mexico play such a role in 
the contributions to the funding mechanism.
    I think, as you know, Mr. Chairman, national parks are 
prized and celebrated in our local communities, including those 
near Grand Teton National Park, our shared Yellowstone National 
Park. Mr. Chairman, the need to develop long-term options to 
address the significant pervasive deferred maintenance 
requirements is very clear to all of us who visit the parks 
regularly. We need to ensure that people are able to visit 
parks that are safe, functional, educational and enjoyable.
    But both Yellowstone and Grand Teton saw record visitations 
last year, over four million visitors each during 2017 and the 
whole population of the State of Wyoming is only a half a 
million people. So to have four million visitors in each park 
tells you what a significant role the parks play in our states. 
These visitors, millions others like them, have joined Wyoming 
residents in enjoying all the wonders the parks have to offer.
    In Wyoming we know that the parks represent important 
wildlife habitat, diverse natural resources and are a legacy 
that we must actively work to protect. We also know that our 
Wyoming legacy is not based solely in our national parks, our 
communities are filled with thriving businesses, agriculture 
components, energy companies. They give their time and their 
money to our local schools, our charities and other small 
businesses. In Wyoming we recognize the need to develop our 
resources wisely to ensure a strong future for the communities, 
and in the case of this bill, certainly for our national parks.
    I think, Mr. Chairman, this bill highlights the irony 
though that some groups that have historically opposed 
expansion of offshore energy development and who have opposed 
increasing onshore development now seem to support using the 
revenues derived from these very activities that these people 
have objected to in the past, as long as it goes to the 
national park fund.
    But what really struck me about the bill, particularly 
after the line of your questioning, Mr. Chairman, is that the 
proposed mandatory funding model begs comparison between this 
proposed fund and other existing funds, like the Reclamation 
Fund, for example, is also currently funded by energy revenues 
and it has a balance of today, on the books, about $14 billion. 
And yet, in order to actually access this money, to use any of 
that money on the ground, Congress has to first appropriate the 
dollars.
    Well, it is worth noting that for the last 14 years, 
Wyoming contributed over 50 percent of the royalty receipts to 
this Reclamation Fund. And my friend from New Mexico, who just 
had asked the questions, he knows that his state has 
contributed 27 percent. So it is 77 percent of all the money in 
the Reclamation Fund has been populated by receipts from two 
western states, Wyoming and New Mexico. And still, access to 
the funds, to actually use the funds is very hard to come by.
    So it is disheartening for people in Wyoming for whom water 
storage projects and other activities the Reclamation Fund is 
supposed to be funding and could be funding, well, the projects 
seem far out of reach and the money is stuck there.
    To be clear, I am not suggesting we make each of the other 
funds populated by offshore and onshore revenues mandatory 
spending, but I am suggesting that a bill that includes 
mandatory spending, even for just five years, seems a greater 
priority system that favors parks and over critical water 
projects or other conservation programs, like those funded 
through the Land and Water Conservation Fund.
    It is not just a question of existing funds. There are a 
number of initiatives in bills that would like a piece of this 
unobligated revenue as well.
    The bill is not unique. If enacted, this funding mechanism, 
I believe, will set a precedent that it will take away 
Congress' ability to direct resources, even for just five 
years. And when we have the conversation about each of these 
other funds in the future, this fund will then become a 
reference point.
    I just think, Mr. Chairman, the need for a better 
maintenance schedule and specific funding for the National Park 
Service deferred maintenance fund needs is very clear. We need 
to do this.
    My comments today are simply unanswered questions about 
whether this funding model is the best one to tackle the $11.6 
billion behemoth that lurks around every corner and every trail 
in every national park in America.
    It is a job that needs to be done. I appreciate the work 
that you have done and that members of the Committee have done 
to propose meaningful changes for the Park Service. I think it 
is important.
    I look forward to continuing to work with you to answer 
some of these remaining questions about how we ensure these 
incredible national parks that we are so blessed with have a 
bright future.
    Thank you, Mr. Chairman.
    Senator Daines. Thank you, Senator Barrasso.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Deputy Director McDowall, in our state two-thirds of our 
deferred--we have five national parks, but two-thirds of the 
deferred maintenance is related to paved roads in Theodore 
Roosevelt National Park. How would the Restore Our Parks Act 
help the National Park Service improve transportation assets in 
our park and the other national parks?
    Ms. McDowall. So, 35 percent of the funds that would be 
deposited into this fund under this legislation would be 
devoted to transportation projects, like roads. The split is 
65/35 because we do have other fund sources available as well 
for transportation projects from federal highways.
    Senator Hoeven. Describe the funding mechanism.
    Ms. McDowall. The funding mechanism for the legislation 
that's on the table, Restore Our Parks Act?
    The funding would come from funds that would otherwise be 
deposited as miscellaneous receipts from energy development, 
including onshore, offshore, alternative energy, an all-of-the-
above strategy, consistent with the Administration's overall 
energy development strategy.
    Senator Hoeven. And are some of these revenues already 
flowing into an account or would this be new projects?
    Ms. McDowall. These would be, if you're talking about 
projects that would be funded out of the new revenues, they 
would be additional projects that we could not cover with the 
funding that we currently have available. So there would be 
overall more projects, more transportation projects being done 
in the Park Service.
    Senator Hoeven. Ms. Argust, how does the Restore Our Parks 
Act encourage public-private partnerships in addressing the 
deferred maintenance backlog?
    That is one of the things we are trying to do in other 
areas are these public-private partnerships for infrastructure 
whether it is flood projects or roads and so on and so forth.
    Are you looking at the P3--public-private partnership--
mechanism for the parks?
    Ms. Argust. There is a provision in the bill that would 
encourage donations that would go toward addressing deferred 
maintenance as well as public-private partnerships that would 
be used for deferred maintenance.
    Senator Hoeven. Does that give those projects some priority 
then, for example, if you have organizations that will make 
significant contributions in order to get a project going, how 
does that factor into the decision as to where the public 
revenues are allocated?
    Ms. Argust. I do not believe it gives those projects any 
prioritization on the list that goes to Congress.
    Senator Hoeven. Okay.
    But yet, you want to create incentives to leverage those 
dollars, right? How do you create those incentives then to 
leverage private funds to participate with the public funds?
    Ms. Argust. It's providing an authorization. The incentive 
is not quite the same as it has been in other bills but there 
is the authorization and the encouragement to be able to allow 
private and public partnerships to go toward deferred 
maintenance.
    Senator Hoeven. That would come in as charitable 
contributions.
    Ms. Argust. Correct.
    Senator Hoeven. Okay.
    And then Ms. Brengel, in your testimony you discuss how the 
Restore Our Parks Act balances funding between transportation 
and non-transportation. Can you elaborate on that a little bit?
    I understand it is 35 percent from Ms. McDowall, but can 
you talk about that balance in terms of how the funds are 
allocated?
    Ms. Brengel. So the way that the bill was designed was to 
take into account money that's coming in through the Highway 
Trust Fund for the Park Service, and to make sure that there is 
parity when you included that funding into it. So that actually 
brings it to almost 50/50 when you include the money that we 
bring in annually through the Highway Trust Fund.
    The Park Service also does have opportunities to access 
other transportation funds from the Reauthorization bill and 
does--we have seen several projects that have been able to move 
forward. For instance, the State of Florida applied for a Tiger 
Grant in order to construct the Tamiami Trail which allows the 
water flow into the Everglades to be improved. There are other, 
sort of, sea mat grants for areas that are--haven't reached 
attainment in terms of air quality where those areas have 
applied for money.
    So when you take into account the transportation funds that 
are already being applied to national parks and you try to find 
parity between the amounts, you get closer to it in the bill 
when you have a 65/35 split for five years.
    Senator Hoeven. Do all of you see this legislation as 
significantly increasing the pull of private dollars into this 
effort to leverage the public dollars?
    Ms. Brengel. There are philanthropic entities that care 
deeply about the parks that want to write checks to improve the 
parks. In the previous hearing on this topic, on the oversight 
hearing, I think the National Park Foundation put it really 
well when they said that it's hard to raise money for water 
systems and sewer systems and so on and so forth. And that's 
going to continue to probably be a challenge.
    A lot of funding is raised for the Centennial Challenge 
program which is both appropriated and part of a previous bill. 
And those, that program is wonderful and incentivizes a one-to-
one match. We've seen a lot of improvements and even some 
deferred maintenance projects tackled because of that one-to-
one match. So there are other avenues that might be more 
attractive to the philanthropic community.
    Senator Hoeven. Okay.
    Thank you.
    Senator Daines. Thank you, Senator Hoeven.
    One follow-up question for Ms. McDowall.
    You mentioned in the bill that this would create the 
National Park Service Legacy Restoration Fund which will be 
used to address some high priority deferred maintenance needs 
of the parks.
    One thing I have observed here today is first we have had a 
lot of governors here today.
    [Laughter.]
    I tell you, I am pandering here. I am surrounded by 
governors right here on my left and my right, but no, Senator 
Alexander. We had Senator Warner. And governors have to find 
solutions all the time because you are an office of one.
    I think that probably brings some of the pragmatism to 
trying to get something done here, and I thank you for the 
leadership of our former governors.
    There is also probably a common thread with many of us here 
today is commitment to LWCF.
    I would like to get into a bit more detail of how the 
Legacy Restoration Fund would operate with existing public 
lands funds. As you recall in my opening statement I mentioned 
that LWCF is an important program, certainly to Montana and the 
West. We want to ensure that the creation of this fund would 
not come at the expense of existing funds. Could you explain 
for us here today how the NPS Legacy Restoration Fund would 
interact with very important funds like LWCF and GOMESA?
    Ms. McDowall. So the Administration agrees that LWCF and 
GOMESA obligations are very important. That is why the 
legislation is designed to ensure that no funds are deposited 
for the Park Service that would otherwise go to other mandatory 
accounts, obligations under for a lot of these energy revenues. 
So the fund is designed to only deposit monies that would 
otherwise be deposited as miscellaneous receipts and are not 
obligated for some of those other funds.
    Senator Daines. Yes.
    I have been studying the past ten-year actual numbers, year 
by year. We have had, I think it's very safe looking at past 
history and probably looking at reasonable forecast, there will 
be enough coming up from these streams here to continue to keep 
funding all of these to see if we would like to see it funded 
higher, we will get a permanent, mandatory, but we will take 
this a step at a time.
    It looks like the funding streams here will be adequate. I 
think that is a concern of the community that supports LWCF, 
and we want to make sure we've looked at that math and that 
accounting.
    Ms. McDowall. I would say that the Administration agrees 
with that perspective.
    Senator Daines. Alright.
    Ms. McDowall. Yes.
    Senator Daines. Thank you.
    If there are no more questions here today, members may also 
submit follow-up written questions for the record. The hearing 
record will be open for two weeks.
    I very much want to thank the witnesses for great 
interaction today, very informative for this Committee and for 
your testimony today.
    The hearing is adjourned.
    [Whereupon, at 4:22 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

</pre></body></html>
